ORIGINAL
Supreme Court, U,S.
FILED

APR 2 0 2021

9

No.

OFFICE OF THE CLERK

Supreme Court of the United States
Wilfredo Torres,
Pro Se Petitioner
-vsThe Blackstone Group,
Respondent
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit

Petition for a Writ of Certiorari
Pro Se Petitioner:

Respondent:

Wilfredo Torres
470 Second Avenue Apt. 2A
New York, N.Y. 10016

The Blackstone Group
Attn. Rose & Rose Law Firm
Dean Dreiblatt, Esq. Paul Coppe, Esq.
291 Broadway 13th Floor
New York, N.Y. 10007

Telephone: 212-447-1737

Telephone: 212-349-3366

Questions Presented:
—whether a federal Judge with a history of racism, bias, service to the Deep State, and conflict
of interest involving her husband in this and other cases, violated my right to due process of
law when she dismissed this action against the defendant-landlord for stealing my legal mail of
a separate national security case which she later dismissed.
—whether a federal Judge incurred in a conflict of interest and violation of my right to due
process of law when she dismissed this case while her husband does multi-billion dollars
transactions for the defendant-landlord.

Related Cases:
16CV2362 (RA) (KNF)
W. Torres vs City of New York, et al.
U.S. District Court-Southern District of New York.
Dismissed by Judge Ronnie Abrams on March 31, 2021.
No Final Judgement entered - appeal is pending.
Related Mandamus filed at U.S. Court of Appeals for the Second Circuit. Case 21-224.
18CV6343 (RA) (KNF)
W. Torres vs The Blackstone Group (RA) (KNF)
U.S. District Court-Southern District of New York.
Dismissed by Judge Ronnie Abrams on September 4, 2019.
U.S. Court of Appeals for the Second Circuit-case 19-3202 was Dismissed on Dec. 20, 2021.
U.S. Court of Appeals for the Second Circuit-en banc petition denied on January 21-2021.
See attached Order.
Supreme Court of the United States-present Petition for a Writ of Certiorari filed on 4-20i202£l£
18CV4665 (RA) (KNF)
W. Torres vs New York City Health and Hospitals.
U.S. District Court-Southern-District of New York.
Dismissed by Judge Ronnie Abrams,
U.S. Court of Appeals for the Second Circuit-Pending Case21-101.
19CV6332 (ER) (KP)
W. Torres vs City of New York, et al.
U.S. District Court-Southern District of New York.
Pending before Judge Edgardo Ramos, and Magistrate-Judge Katharine Parker.

L

List of Parties:

All parties appear in the caption of the case on the cover page.

Index to Appendices:

Appendix A:
Case 19-3202
Court of Appeals for the Second Circuit.
En banc petition denied.
Dated January 21, 2021
Appendix B:
Case 18CV6434 (RA) (KNF)
U.S. District Court-Southern District of New York
Judgement of Dismissal
Dated: September 4, 2019

Table of Contents:

Motion for Leave to Proceed in Forma Pauperis
Cover-

II

Questions Presented

Ill

Related Cases

IV

List of Parties

V

Index to Appendices

VI

Table of Contents

VII

Jurisdiction
Statement of the Case

IX

Reasons for Granting the Petition

X

Conclusion

XI

proof of Service

XII

JURISDICTION
\J(yoy cases from federal courts:
The date on which, the United States Court of Appeals decided my case
was"
Zp
^
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:
2-l^rz.o3-/
and a copy of the
order denying rehearing appears at Appo^div
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____ _
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Statement of the Case:
1—Serving the Deep State, U.S. Senate Select Committee on Intelligence members Charles
Schumer and Kirsten Gillibrand appointed U.S. Judge Ronnie Abrams to her position at the
Southern District of New York, and her husband Greg Andres, Esq. as Deputy U.S. Attorney
General and later as assistant to Special Counsel Robert Mueller.
Robert Mueller is the infamous former FBI Director who was named to that position by then
U.S. President George W. Bush five (5) days before 9/11 with the sole mission to cover-up the
CIA-Deep State controlled demolition of the twin towers.
On 11-07-2018 the U.S. Attorney for the SDNY tried to investigate, but was quickly fired. Exh. 1.
In my present lawsuit about a CIA warrantless raid of my apartment Judge Abrams persecutes
me, Andres orders additional warrantless raids, and Judge Abrams covers them up. Exhibit 2.
2—I am erroneously included in the terrorists list of the United States government, and as such
am persecuted, tortured, and denied due process of law by the Courts. Exhibit 3.
3—The government of the United States publicly accepts that its own Central Intelligence
Agency ("the CIA") as enforcers of the Deep State bombed and destroyed the World Trade
Center on September 11, 2001 ("9-11"); slaughtered over 3,000 people almost at front of the
federal courthouse; blamed others; in Iraq alone it massacred over 1-million innocent men,
women, and children; got both political parties to assign billions of dollars to the fake "war on
terror" at home and abroad; multiplied the military budget; activated a tyrannical law called
The Patriot Act; a secret and omnipotent Court named Foreign Intelligence Surveillance Court;
and replaced the U.S. Constitution for a police-state. Exhibits 4,5,6,7.

4--As part of the CIA's COINTELF%0tl6hiestic assassinations program,

on 9-28-2015 terrorists

of that agency accompanied by my landlord, Bellevue South Associates ("BSA"), carried-out a
warrantless raid of my apartment after breaking its door.
5—They left a handwritten note with the word "intel", and the name of New York Regional
Director of the Department of Homeland Security, CIA terrorist Dennis McGowan, as the
person that sent them.
6—They called the raid a "wellness-check".
7—NYPD and federal officials not only ignored my complaints, days later they planted a
surveillance tower at front of my window. Exhibits 8 and 9.
8—1 filed lawsuit 16CV2362 at the Southern District of New York federal Court, and it was
assigned to Judge Ronnie Abrams, and Magistrate-Judge Kevin Nathaniel Fox who always
protected the CIA terrorists while treating me like a criminal.
9—Invited by Judges Abrams, and Fox, the CIA terrorists and BSA returned on 4-28-2016',
again broke the door of my apartment for another warrantless raid, handcuffed, abducted, and
took me by ambulance to HHC Bellevue Hospital to be tortured as a John Doe. Exhibit 10.
10—They called the raid "a wellness-check".
11—Judges Abrams and Fox covered-up the identities of the CIA terrorists, and refused to

include them in the case. 16CV2362-dockets 47, 66, 84, 89,105,106,108,119,120,121,127,
128,129,132, 152,158, 162, 250, 259, 260, 261, 263, 264, 265, 267, 316, 342, 444, 435, 446.
12—Judges Abrams and Fox were in fact inviting more attacks against me.

13—The NYPD filed an affidavit stating that the CIA terrorists, not the NYPD, were responsible
for handcuffing, kidnapping, transporting, and torturing me at HHC Bellevue Hospital. Case

16CV2362, docket 210.
14—The FDNY ambulance report states "A MALE ADULT COMPLAINING OF NOTHING". Case

16CV2362, docket 212.
15—During the torture I was assaulted by HHC Bellevue Hospital employees, involuntarily
injected with drugs, urine and blood were forcefully taken, x-rays and MRI's were done.
16—The torture was such that I developed fever of 101 degrees, my two-days old spinal
surgery was permanently damaged, and up to this day need medications, treatment, and suffer
from PTSD.
17—New case 18CV4665 against HHC Bellevue Hospital was commenced without the CIA
defendants.
18—Although she was biased against me Judge Abrams denied my petition for her recusal.
Case 16CV2362, docket 333.
19—Invited by Judges Abrams and Fox, on 12-13-2018 a CIA terrorist posing as NYPD
Lieutenant Neil Veras, and NYPD Police Officer Patricia de Jesus, used a sledgehammer trying
to break the door of my apartment after I refused to give them access. Video-recorded.
20—On 12-20-2018 Veras, de Jesus, and Detective Christopher Rickford demanded access to
my apartment, and yelled threats such as "we will tell your neighbors that you are a rapist,
and a pedophile". Recorded.

21—On 12-21-2018 a community lawyer told me that Veras and de Jesus wanted to arrest me,
I surrendered at the 13th police station, was falsely charged with a misdemeanor, taken before
a Judge, released without bail, and the case was dismissed days later.
22—Invited by Judges Abrams and Fox, on 2-27-2019 Veras, de Jesus, and three (3) others
NYPD Police Officers carried-out a warrantless raid of my apartment, and falsely charged me
with a misdemeanor.
23—Veras ordered the three (3) Police Officers to take me to the 13th police station while
he and de Jesus stayed behind ransacking the apartment in my absence. See exhibit 2.
24—I was taken to the police station; with leg shackles to HHC Bellevue Hospital for another
involuntary psychiatric exam; to the police station; to Court; to the police station; to HHC
Bellevue Hospital again; to the police station; and to Court where handcuffed behind my back
appeared before a Judge more than a day later and was released; the case was dismissed a few
days later.
25—Although the case was related to the previous raids, to escape the persecution by Judges
Abrams and Fox, I was forced to ask Chief Judge Colleen McMahon to assign it to a different
courtroom: new case 19CV6332 was commenced.
26—On 10-29-2019 Judge Abrams sent case 16CV2362 to Magistrate-Judge Fox for reports
and recommendations about the Motions for Summary Judgement. Docket 367.
27--Judges Abrams, and Fox set traps, disregarded the evidence, and dismissed most
defendants of case 16CV2362, except Dennis McGowan, and Dr. Aaron Buckland.

28—On 1-07-2021 Judge Fox filed a report and recommendation to dismiss case 18CV4665,
against defendant HHC and gave me 14-days to file objections. Docket 38.
29—The same day, 1-07-2021, Judge Abrams capriciously dismissed the case disregarding the
14-days to file objections. 18CV4665, Docket 39.
30—After reading my objections to her premature dismissal of the case she stated: " I would
have dismissed it anyway". 18CV4665, docket 43.
I filed appeal 21-176, and Writ of Mandamus 21-101 at the Second Circuit Court of Appeals.
31—The same day, 1-07-2021, she also dismissed the case against defendants Dennis
McGowan, and Aaron Buckland without the reports of recommendations by Magistrate-Judge
Fox. Case 16CV2362, docket 445.
PresentXase 18CV6434—Torres vs The Blackstone Group:
1—In December 2016 landlord-defendant BSA sold to The Blackstone Group for $700 million
the building-complex in which I live, and Blackstone continued the employment of most of the
employees.
2—Some of these employees had been trying to sabotage my lawsuit by stealing my mail.
3—Judges Abrams and Fox ignored my communications about this issue. Case 16CV2362,
dockets 215, 216, 223, 224, 227, 228.
4—On 7-16 20211 filed the present lawsuit 18CV6434 against Blackstone for stealing my mail,
and

continued to complain* Dockets 10, 28.

5—Ndfeven an email on 7-25-2918 to Blackstone's CEO, copy to the Court and all the
defendantSjgot them to stop the theft of my legal mail. Exhibit
6—On 09-03-2019 Judge Abrams dismissed the case against Blackstone while her husband
Greg Andres, Esq., employed by Davis, Polk, Wardwell, LLP, conducted multibillion dollars
transactions on behalf of that defendant, and did work for defendant U.S. Department of
Justice.
7—On 2-26-2020 Judge Fox filed and Judge Abrams accepted recommendations to dismiss
most cases stating that I had not followed the instructions of Rule 56 in answering the Motions
for Summary Judgement.
8—Judge Fox states in his recommendations that the way I answered the Motions for
Summary Judgement indicates that I was not aware of the Rule 56 requirements.
9—The Rule 56 instructions had been stolen by Blackstone.

6

Wilfredo Torres

r

Reasons for Granting the Petition:

The Constitution of the United States is being trashed by these defendants; and the iowerCourt.

Conclusion:

This case is a clear example of what happens when the rich takes control of our Courts and
government.

